    Semiannual Report
      to Congress
April 1, 2010 - September 30, 2010
      Fiscal Year 2010 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                    Table Of Contents


A Message From Acting Inspector General Kenneth Bach .................................. 1

Audit Section ............................................................................................................ 3
      Audit Results ................................................................................................................................ 5
      Significant Audit Activity ............................................................................................................ 5
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 8

Investigations Section ............................................................................................. 9
      Investigative Results ................................................................................................................. 11
      Significant Cases And Activity ................................................................................................. 11

Review Of Legislation And Regulations .............................................................. 15
      Impact and Rulemaking Related to the Serve America Act ................................................... 17

Statistical And Summary Tables .......................................................................... 19
      I.      Inspector General Act Reporting Requirements ........................................................... 21
      II.     Audit List ........................................................................................................................... 22
      III.    Reports With Questioned Costs ..................................................................................... 23
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 24
      V.      Summary Of Audits With Overdue Management Decisions ........................................ 25
      VI.     Reports Described In Prior Semiannual Reports Without Final Action ...................... 25
      VII.    Peer Reviews .................................................................................................................... 26

Fiscal Year 2010 Performance Information ......................................................... 27


                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of Fiscal Year (FY) 2010. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                Inspector General’s Message


              A Message From Acting Inspector
                        General Kenneth Bach
October 29, 2010

I am pleased to share with you our Semiannual Report to
Congress, which details the achievements of the Office of
Inspector General (OIG) for the period April 1 through
September 30, 2010. During this reporting period, the OIG
made major strides in realigning and adding to its resources
and skill sets in order to meet the oversight challenges of a
major expansion of programs now under way at the
Corporation for National and Community Service
(Corporation).

At the heart of our effort was a series of audits and
investigations focusing on the Corporation’s new and
existing programs and operations. Our goal is to have a
more global positive impact on the Corporation and all of its
stakeholders by detering and preventing instances of fraud, waste, and abuse. At the same time we
have continued our comprehensive audit and investigative efforts directed at individual Corporation
grantees, especially those that have been determined to be higher risk entities.

Our long-term commitment to this oversight focus is detailed in the “Three-Year Work Plan for FYs
2011-2013” that the OIG developed and adopted during this reporting period.

Our Audit Section issued 11 reports, resulting in more than $451,000 in questioned costs, and the
identification of more than $365,000 in funds that could be put to better use. Of greater value were
the numerous recommendations for improvement in Corporation and grantee operations, policies and
programs.

Our Investigations Section opened 17 new cases and closed 24 actions, including 16 cases with
significant findings, resulting in the recovery of more than $518,000 in taxpayer dollars and the
potential recovery of more than $2.3 million for reinvestment in national service.

Our investigators and auditors joined forces to safeguard the $200 million in American Recovery and
Investment Act (ARRA) funds invested in expanded AmeriCorps and Volunteers in Service to
America (VISTA) programs. During this reporting period, they completed a series of more than 40
site visits and outreach training sessions, reaching an audience of more than 1,000 grantee officials
and program participants. Also, our Audit Section conducted a series of financial systems reviews of
higher-risk ARRA grantees.

This work produced immediate and wide-ranging benefits, including key reforms enacted at the
Corporation’s Volunteers in Service to America Member Support Unit (VMSU). An OIG audit had
found that the VMSU, the personnel records repository for VISTA members, lacked clear policies and
procedures and that its record keeping was inconsistent.

Another OIG audit, which is ongoing, found serious financial and programmatic problems at the
service commission of a U.S. Territory that had received ARRA and other grant funds from the
Corporation. We immediately advised Corporation management of our preliminary findings and, on
September 24, 2010, the Corporation put a manual hold on the grantee’s drawdowns of grant funds.




April 1, 2010 – September 30, 2010                                                             1
Inspector General's Message

 The OIG also became actively engaged in overseeing the new service initiatives authorized under the
 Edward M. Kennedy Serve America Act of 2009. During this reporting period the Corporation made
 $50 million in grants from its new Social Innovation Fund (SIF), under which grantees are charged
 with developing new service initiatives and best practices for their implementation. Before the SIF
 awards were made, we proposed to the Corporation that our auditors review the financial systems of
 grantee candidates and determine their ability to handle Federal funds. Our proposal was accepted
 and the reviews identified a lack of needed controls that, in some cases, was due to the grantees'
 lack of prior Federal grant experience. The results were reported to Corporation management.

 After questions were raised about the results of the initial SIF awards competition, we also initiated, at
 the request of the Corporation , a review of the SIF grant award process , focusing on the policies and
 procedures the Corporation used to evaluate and select grantees.

 The Corporation has experienced security issues surrounding its information technology (IT) systems
 and systems used by Corporation contractors to manage Corporation data. As part of our effort to
 evaluate and recommend improvements for core Corporation operations, we launched a number of
 examinations of the agency's IT infrastructure, the capacity and efficiency of which has been
 identified as a key concern by Corporation management. Projects under way include our Federal
 Information Security Management Act evaluation, along with reviews of key IT contracts and the
 circumstances of a security breach that may have compromised the personally identifiable
 information of AmeriCorps members and applicants.

 To effectively meet its new and expanding challenges, the OIG undertook a realignment project
 during this period . We first contracted for a management review to determine if our staffing levels and
 staff skill sets were appropriate to meet our new obligations . Based on its findings, we changed some
 of the responsibilities of our existing staff and identified a number of human capital needs. Key hires
 made during this period included a Chief Technology Officer to develop and manage our ever-
 expanding IT needs, and an Administrative Officer to oversee day-to-day administrative functions,
 including procurement and budgeting.

 We also began the process of establishing a new Analytical/Intelligence Team as part of our
 expanded oversight efforts. This new team will support our auditors and investigators by conducting
 trend analyses, research of various public and Federal databases, and will develop data mining
 expertise of the agency's data systems . Our long-range goal is to develop predictive modeling, using
 the data contained in the agency's information technology systems, along with a wide variety of public
 and Federal systems, to identify misuse of Corporation grant funds before the end of the grant award
 period. This will enable the OIG to respond in a timely manner to safeguard Federal grant funds
 before those funds have been fully expended.

 In addition to the aforementioned grantee site visits and training sessions, the OIG made outreach a
 top priority during this reporting period. Our staff participated in a number of Corporation employee
 and grantee training events and also began briefing all new Corporation personnel as part of the
 agency's orientation program. My staff and I also developed an effective and constructive working
 relationship with the Corporation's new management team . We further met with key House and
 Senate staff members to brief them on our work and hear their concerns related to the Corporation
 and its programs .

 I am extremely proud of the accomplishments of my office during this reporting period and I am
 confident that our realigned and reenergized OIG is more than equal to the task of effective and
 efficient oversight of taxpayer dollars invested in National Service.




 2                                                        April 1, 2010- September 30, 2010
                                                 Audit Section
                  The Office of Inspector General Audit Section is
                  responsible for reviewing the financial, administrative,
                  and programmatic operations of the Corporation for
                  National and Community Service. The Audit Section’s
                  responsibilities include auditing the Corporation’s
                  annual     financial   statements,     assessing     the
                  Corporation’s management controls, reviewing the
                  Corporation’s operations, and auditing individual grants,
                  contracts, and cooperative agreements funded by the
                  Corporation.    All OIG audit reports are issued to
                  Corporation management for its action or information.




April 1, 2010 – September 30, 2010                                    3
                                                                              Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued 11 reports, as listed on page 22, which
 included several reviews designed to improve overall Corporation operations. We also completed a
 series of proactive projects and audits to provide oversight of the $200 million appropriated to the
 Corporation under the American Recovery and Reinvestment Act of 2009 (ARRA). Our efforts
 included:

        Completing the first segment of our comprehensive audit of Volunteers in Service to America
         (AmeriCorps*VISTA), which received $65 million in ARRA funding to support 3,000 additional
         members.
        Completing fieldwork on 13 accounting system reviews for higher-risk ARRA grantees. The
         ARRA allocated $89 million to support 10,000 additional AmeriCorps members.
        Initiating a VISTA grant audit of ARRA funding for a grantee that had the largest number of
         allocated member slots.

 The eight grantee agreed-upon procedures/audits issued during this period, which focused on the
 Corporation’s National Direct grantees, questioned more than $451,000 in claimed costs and
 recommended that more than $365,000 in funds be put to better use. There were 16 audits in
 process at the end of this reporting period.

 At the invitation of the Corporation’s Internal Control and Analysis Team, the Audit Section staff
 presented a series of three internal control training sessions to Corporation managers. The sessions
 were provided to assist the Corporation’s OMB Circular A-123 Internal Control Program. Audit staff
 also conducted training at the Corporation’s National Conference on Volunteering and Service in New
 York City. We briefed attendees, who are directly responsible for grantee accounting and reporting,
 on the OIG audit process, as well as common audit findings and problems. We further conducted
 training at a gathering of Corporation employees who are responsible for conducting grantee
 monitoring. Our presentation focused on the relationship between OIG audits and the Corporation’s
 other monitoring activities.


Significant Audit Activity
 American Samoa Special Services Commission (ASSSC)

 On September 23, 2010, the OIG presented a Management Alert to the Corporation on the
 preliminary results of an agreed-upon procedures review of ASSSC. The OIG, which reviewed
 procedures of the ASSSC and two of its subgrantees, found a material failure to comply with the grant
 terms and conditions. The financial and programmatic issues discovered included:

        Accounting system not used
        Inadequate timekeeping
        Poor cash management
        Abuse of travel
        Inadequate controls of purchasing
        Inadequate monitoring of subgrants
        Lack of controls to verify member service requirements
        Lack of a competitive process for sub-awards

 Although the agreed-upon procedures review was not completed at the time of the Alert, we
 anticipated that significant questioned costs would be presented in the final report.  We
 recommended the following actions:




 April 1, 2010 – September 30, 2010                                                             5
Audit Section

        Immediately place a hold on ASSSC’s U.S. Health and Human Services, Division of Payment
         Management (HHS/PMS) drawdowns; and
        Prepare to terminate the ASSSC grants.

 On September 24, 2010, the Corporation requested that HHS/PMS place a manual hold on ASSSC’s
 drawdown accounts. During the next reporting period, the OIG will issue the draft and final reports
 and will work with the Corporation to ensure that corrective action takes place. We also referred this
 matter to our Investigations Section.

 Audit of the Volunteers in Service to America Member Support Unit (VMSU)

 As a result of this OIG audit, the Corporation implemented significant reforms and new processes for
 the VMSU, which compiles and retains personnel and other records of VISTA volunteers. Our report
 to Corporation management, dated June 14, 2010, disclosed that:

 (1) the VMSU lacked approved written operating policies and procedures; (2) VISTA member files
 were missing one or more documents and documentation in the files lacked required signatures; (3)
 members serving without a required Oath of Service document on file, and; (4) documentation used
 to establish members’ citizenship or permanent resident alien status was missing or insufficient.

 As a result of our audit, the Corporation implemented a written Internal Processes & Procedures
 Document for the VMSU, effective September 1, 2010; and Eligibility Requirements for AmeriCorps
 VISTA Documentation of U.S. Citizenship/National or Lawful Permanent Resident Alien status,
 effective July 29, 2010.

 The Internal Processes & Procedures Document provides VMSU technicians with 1) written
 instructions regarding file contents and maintenance, 2) documents the responsibilities of VSMU
 technicians and state office staff and the required documents and submissions to the VMSU, 3)
 provides procedures to verify that continuing VISTA members have an oath of service on file, 4)
 establishes procedures to locate and obtain missing member documents.

 The Eligibility Requirements for AmeriCorps VISTA Documentation of U.S. Citizenship/National or
 Lawful Permanent Resident Alien status instruct Corporation personnel to use/adopt the same
 citizenship verification standards used by AmeriCorps*State and National. This will promote
 consistency across all AmeriCorps programs; and ensure that citizenship requirements are met for
 VISTA members receiving education awards from the Trust.

 Pre-award Accounting System Inspection Reviews of Social Innovation Fund (SIF) Grant
 Applicants

 The SIF, a new public-private partnership authorized by the Edward M. Kennedy Serve America Act
 of 2009, is designed to create new program models for solving social challenges in the areas of
 economic opportunity, youth development, school support, and healthy futures. In Fiscal Year (FY)
 2010, the Corporation awarded an estimated $50 million in Federal funding to 11 intermediary
 organizations in amounts up to $10 million. The intermediary organizations – grant-making institutions
 – will make subgrants to a portfolio of nonprofit organizations. The funding mechanism calls for every
 $1 in Federal funding to be leveraged by $3 in private funds.

 The OIG, recognizing that all new programs can pose a significant risk to the Corporation and the
 taxpayer funds it grants, approached Corporation management with a proposal that we review grant
 applicants’ accounting systems prior to the actual awarding of any SIF grants. Our proposal was
 accepted and a team of OIG auditors and audit managers fanned out across the country to conduct
 nine reviews of applicants that were subsequently awarded SIF grants.

 We found that many of the applicants had received no prior Corporation funding and, in some cases,
 had no experience with Federal grants. Consequently, many of the applicants lacked the accounting
 and financial systems and procedures needed to properly account for Federal funds.


 6                                                     April 1, 2010 – September 30, 2010
                                                                                  Audit Section

We issued nine separate letters to Corporation management detailing our findings. Those letters also
contained a total of 53 recommendations for strengthening SIF applicants’ accounting and financial
systems and procedures. Corporation grant officers will conduct site visits of the SIF grantees within
the first year of the grant and will determine whether the OIG’s recommendations have been
implemented.

We believe this proactive initiative helped to detect and prevent potential fraud, waste and abuse
involving the SIF program and its grantees. At the same time, this effort gave the OIG valuable
insights into a major new Corporation grant program.

Agreed-Upon Procedures of Grants Awarded to Greater Pittsburgh Literacy Council (GPLC)

As a result of applying our procedures, we questioned claimed Federal-share costs of $225,703,
education awards of $131,022 and accrued interest awards of $1,674.

The auditors also identified the following pervasive compliance problems:

       One subgrantee’s financial management system did not adequately account for and report
        Federal and match grant costs in accordance with Federal requirements.

       Subgrantees claimed unallowable and unsupported costs.

       Subgrantees had weaknesses in member timekeeping procedures and, in some instances,
        timesheets did not support member eligibility for education awards.

       Subgrantees did not maintain documentation to demonstrate that criminal history checks
        were conducted for all members and were in compliance with AmeriCorps provisions.

       Subgrantees did not comply with AmeriCorps citizenship eligibility requirements.

       Subgrantees could not demonstrate that some members received performance evaluations,
        and none of the end-of-term evaluations met AmeriCorps requirements.

       GPLC and its subgrantees did not follow certain AmeriCorps requirements.

As a result of issues and findings raised during the agreed-upon procedures, GPLC notified the OIG
that its contract with one its largest subgrantees was not being renewed. We are waiting on
Corporation management’s response to our findings.

Agreed-Upon Procedures of Grants Awarded to The Research Foundation of City University of
New York (RFCUNY)

As a result of applying our procedures, we identified three findings which primarily relate to:

       Ineligible members enrolled in the AmeriCorps program,

       Lack of accountability/auditability of match costs under the grant, and

       RFCUNY’s lack of understanding of certain grant requirements.

We questioned claimed Federal-share costs of $5,370, match costs of $304,582, and education
awards of $174,825. RFCUNY’s AmeriCorps program is designed to attract individuals without prior
teaching experience to the teaching profession. RFCUNY, however, enrolled individuals who were
current charter school teachers. RFCUNY officials stated they thought it was permissible to enroll
these individuals because they were uncertified and needed certification to remain teaching at charter
schools, and because several enrollees had limited teaching experience.



April 1, 2010 – September 30, 2010                                                                7
Audit Section

 RFCUNY and Hunter College considered themselves to be joint grantees based on an agreement
 signed in 1983 between the two entities. As part of the agreement, RFCUNY is responsible for
 accounting for expenditures, preparing periodic financial reports for project directors and funding
 agencies, monitoring expenditures, maintaining auditable accounts, and ensuring compliance with its
 policies and sponsor requirements. Hunter College is responsible for selecting personnel, making
 technical decisions related to the project, and ensuring compliance with award terms, its own policies,
 and city and state requirements.

 Because the grant agreement between RFCUNY and the Corporation does not identify or assign
 responsibilities or rights to Hunter College, we identified RFCUNY as the grantee.

 We noted that RFCUNY was the subject of an earlier agreed-upon procedures report that contained
 many of the same findings and issues raised in this report. During the audit resolution process for the
 earlier report, RFCUNY informed the Corporation that it did not intend to reapply as a grantee for the
 final year of the grant. In the Corporation’s Notice of Final Action, it stated that it would conduct a full
 financial capacity assessment before awarding any more funds to RFCUNY. To our knowledge, the
 Corporation did not perform this assessment and RFCUNY continues to receive grant funds. Based
 on our recurring findings and the lack of adequate corrective action on RFCUNY’s management of
 Federal funds, we recommended that the Corporation not renew this grant with RFCUNY.

Proposed Management Decisions With Which The OIG Disagreed

 None.




 8                                                         April 1, 2010 – September 30, 2010
                                     Investigations Section
                  The Office of Inspector General Investigations Section
                  is responsible for the detection and investigation of
                  fraud, waste and abuse in Corporation for National and
                  Community Service programs and operations. It carries
                  out these responsibilities by investigating allegations of
                  criminal activity involving the Corporation’s employees,
                  contractors,     and    grant   recipients.      Criminal
                  investigations are presented to the U.S. Attorney or, in
                  some cases, the local prosecutor for criminal
                  prosecution and monetary recovery, where the facts
                  uncovered so warrant. Some investigative reports are
                  referred to Corporation management for its
                  administrative action.




April 1, 2010 – September 30, 2010                                     9
                                                                  Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 17 new cases and closed 24
 cases, including 16 matters with significant findings. Our efforts resulted in the recovery of more than
 $518,000 in taxpayer funds and the potential recovery of more than $2.3 million from persons and
 programs found to have engaged in fraud, waste, or abuse of Corporation resources.

 Our investigations also resulted in two individuals pleading guilty and being sentenced after misusing
 Federal Program funds and six other matters that are pending adjudication. Also, based on our
 referrals to Corporation management, three individuals were debarred from participating in contracts
 or grants with the Federal government.

 Our investigative personnel made significant progress in the development of our new
 Analytical/Intelligence Team, which will support the audit, investigations and support sections of our
 office. The team will initially consist of two investigators and the investigative assistant, with plans to
 hire an analyst in the future. The team is already an active participant in the Interagency Fraud and
 Risk Data Mining Group, the Grant Fraud Indicators Working Group and the ARRA Investigative
 Working Group.

 The team is incorporating the lessons learned – and best practices developed – by these groups,
 along with key fraud indicators developed by our audit and investigative sections, to enhance our
 ability to provide relevant and actionable information for use in audits and investigations. During this
 reporting period, the team supported the Audit Section by developing information on an AmeriCorps
 grantee and identifying several risk factors that resulted in the grantee being scheduled for an audit.
 The team also reviewed all OIG audit reports issued between FYs 2005 and 2010. It then indexed the
 audit findings into our intelligence database so the information can be easily searched and retrieved.

 Consisting of an Assistant Inspector General for Investigations, five agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include thousands of grantees and sub-grantees
 in all 50 states and U.S. territories. We were assisted in our work by 77 calls, letters and e-mails to
 our Fraud Hotline and by referrals from Corporation managers, employees and program participants.


Significant Cases And Activity
 Corporation Internal Investigations

 During this reporting period, we conducted two investigations involving Corporation employees.

 In one case, we determined that a Corporation employee had misused his position and government-
 issued equipment for personal use. The matter was referred to Corporation management and the
 individual was subsequently suspended for 10 calendar days without pay.

 In another case, we determined that an individual was hired after working for a company with which
 the Corporation had an ongoing contract and that the new employee still had a financial interest with
 his previous employer. It was determined that the employee’s supervisors, who hired the employee
 based on his knowledge and experience working with his former employer, should have known their
 action placed the employee in violation Federal ethics rules. This matter was forwarded to
 Corporation management and the results are pending.




 April 1, 2010 – September 30, 2010                                                                 11
Investigations Section

 Significant Cases

 A former AmeriCorps executive director in Mississippi falsely enrolled her child care employees in the
 AmeriCorps program so that Federal program funds could be used to supplement her employees’
 salaries and provide them with benefits. As a result, the executive director misapplied more than
 $99,000 in Federal program funds. The executive director entered into a plea agreement and was
 subsequently sentenced to two years of probation, 200 hours of community service, fined $3,000 and
 ordered to pay restitution of $99,057.97. The individual was also debarred by the Corporation for
 three years.

 The former director of a Retired Service Volunteer Program in West Virginia embezzled more than
 $124,000 from the program, of which $104,000 was Federal program funds. The individual plead
 guilty and was subsequently sentenced to five years of probation and ordered to pay restitution of
 $124,923.92. The individual was also debarred by the Corporation for three years.

 A former VISTA member in Texas admitted to using another individual’s identity so she could enroll in
 a VISTA program for which she was ineligible because she was an undocumented alien. The loss to
 the Government for living allowances and other benefits illegally received, as well as fraudulently
 obtained VISTA child care benefits, was more than $61,000. The individual has pleaded guilty and
 sentencing is pending.

 We initiated an investigation, which is ongoing, of a firm that was contracted by the Corporation to
 develop the AmeriCorps Portal software system. Based on a hotline complaint, the OIG learned of
 vulnerability in the software that had exposed the personally identifiable information (PII) of
 AmeriCorps members and applicants whose information was entered into the Portal. The
 Corporation contracted with another firm, which issued a report identifying additional software
 vulnerabilities that exposed the PII of members and applicants. As a result of the vulnerabilities, the
 Corporation has notified more than 430,000 AmeriCorps members and applicants that their PII may
 have been compromised.

 We continue to face challenges in having our investigations accepted by the Department of Justice
 for prosecution. During this reporting period, cases were declined for prosecution on grounds ranging
 from “it lacks jury appeal” to the fact that no one personally benefited from their misapplication of
 Federal program funds. Other cases, developed with a considerable investment of OIG resources,
 were declined because they did not meet a U.S. Attorney Office’s “dollar threshold.”

 While we recognize that DOJ, like all Federal agencies, has limited resources, we believe that, in the
 context of the Corporation’s grants and programs, there is no such thing as a small fraud. So-called
 low-dollar amounts lost to instances of fraud waste and abuse can have a major impact on the
 Corporation and its stakeholders. For example, a theft of $18,000 is equal to the taxpayer’s
 investment in an AmeriCorps member who performs a full-year of community service.

 Although the following OIG investigations were declined by DOJ for criminal or civil action, during this
 reporting period, the Corporation ultimately debarred several targets of our investigations:

         Our investigation and audit review of the executive director of a Texas AmeriCorps program
          determined the individual misapplied over $900,000 in Federal program funds over a three-
          year period. The case was declined for criminal prosecution because the suspect did not
          personally benefit and the case lacked jury appeal. The case was declined by the Civil
          Division as the suspect did not have the financial assets to make it worth pursuing. The OIG
          is preparing a recommendation for debarment to Corporation management.

         A former Maryland VISTA program director and her husband conspired to enroll their rental
          company’s employees in VISTA so that Federal funds could be used to supplement the
          employees’ salaries and provide them with benefits. Our investigation disclosed their actions




 12                                                      April 1, 2010 – September 30, 2010
                                                                                           Investigations Section

        allowed the employees to fraudulently receive over more than $37,000 in Federal program
        funds. The investigation was initially accepted for criminal prosecution but later declined.
        The Civil Division initially accepted the investigation, but after 18 months had passed, it
        declined to pursue civil action because the suspects had filed for bankruptcy. The former
        program director was subsequently debarred by the Corporation for one year.

       A former New York VISTA program director misapplied more than $330,000 of Federal
        program funds, resulting in the program being terminated and the VISTA members having to
        be reassigned to other programs. The investigation was initially accepted for prosecution in
        September 2005. In March 2010, the suspect signed a Pre-Trial Diversion Agreement in
        which he agreed to serve one year of probation and perform 250 hours of community service.
        The suspect was not required to pay restitution on the ground that he no longer had a job or
        the means to repay the Federal government. The former program director was subsequently
        debarred by the Corporation for three years.

       A former Georgia AmeriCorps program director used AmeriCorps grant funds to supplement
        employee salaries, falsely certified service hours to qualify members for education awards
        and falsely inflated service hours on AmeriCorps members’ timesheets, resulting in a loss of
        more than $370,000 in Federal program funds. In December 2007, the investigation was
        declined for criminal prosecution as DOJ felt the case would be better handled as a civil
        matter. In October 2009, the civil division declined to take action. The individual was
        subsequently debarred by the Corporation for three years.


                                                       Summary Of Cases
       Opened and Closed
         Cases Open at Beginning of Reporting Period                                                      33
         New Cases Opened                                                                                 17
         Cases Closed this Period W ith Significant Findings                                              16
         Cases Closed this Period W ith No Significant Findings                                           8
         Total Cases Closed                                                                               24
         Cases Open at End of Reporting Period                                                            26
       Referred
         Cases Referred for Prosecution                                                                   6
         Cases Acc epted for Prosecution*                                                                 1
         Cases Declined for Prosecution*                                                                  4
         Cases Pending Pros ecutorial Review                                                              2
         Cases Pending Adjudication                                                                       6
       Recommendations to Management
         Investigative Recomm endations Referred to Management                                            9
         Investigative Recomm endations Pending Managem ent Action this Reporting Period                  7
         Investigative Recomm endations Pending Managem ent Action from Previous Reporting
                                                                                                          0
         Periods

       *This includes case s referred f or prosecution during t he previous reporting p eriod.




April 1, 2010 – September 30, 2010                                                                             13
                          Review Of Legislation And
                                       Regulations
                  Section 4(a) of the Inspector General Act directs the
                  Office of Inspector General to review and make
                  recommendations about existing and proposed
                  legislation and regulations relating to the Corporation’s
                  programs and operations. The OIG reviews legislation
                  and regulations to determine their impact on the cost
                  and efficiency of the Corporation’s administration of its
                  programs and operations. It also reviews and makes
                  recommendations on the impact that legislation and
                  regulations may have on efforts to prevent and detect
                  fraud, waste and abuse.        The OIG draws on its
                  experience in audits and investigations as the basis for
                  its recommendations.




April 1, 2010 – September 30, 2010                                   15
                                 Review Of Legislation And Regulations


Impact and Rulemaking Related to the Serve America Act
 In April 2009, Congress passed and the President signed into law the Edward M. Kennedy Serve
 America Act. In addition to reauthorizing the Corporation’s programs and activities, the Act amended
 and added certain sections to the Corporation’s governing statutes in the National and Community
 Service Act of 1993 and the Domestic Volunteer Service Act of 1973.

 The Serve Act created two new education awards: a $1,000 Silver Scholarship education award for
 seniors 55 and older who complete 350 hours of service, and a $500 Summer of Service education
 award for school-age youth who complete 100 hours of service during the summer months. The Act’s
 other key changes included:

        Increasing the amount of an education award earned for a full-time term of AmeriCorps
         service from the static amount of $4,725, set forth in the original 1993 statute, to an amount
         fixed to the annual Federal Pell Grant award, currently set at $5,350.

        Allowing AmeriCorps State and National, and Silver Scholarship participants who are 55 or
         older to transfer an education award from the participant who earned the award to the
         participant’s child, grandchild or foster child.

        Holding grantees financially responsible for improperly granted education awards caused by
         their incorrect or erroneous certification that a participant had completed their term of service.

        Limiting the number of a participant’s terms of service in which they can earn education
         awards to no more than the aggregate amount of two full-time awards.

 To implement these and other changes brought by the Serve Act, the Corporation earlier this year
 submitted for public comment proposed amendments to its regulations for the AmeriCorps State and
 National program and the National Service Trust, the source of funding for education awards.

 The OIG studied the proposed rules and recommended certain sections be redrafted to provide
 greater clarity and eliminate ambiguity so that the grantees and Corporation offices that administer
 and perform oversight of the AmeriCorps program have a common understanding of the new rules.
 The OIG also noted certain sections of the Serve Act that have not been addressed at all in the
 rulemaking process to this point, and recommended that the Corporation implement those in Federal
 regulation as well. The rules were published as final in the August 20, 2010, edition of the Federal
 Register and, for the most part, the Corporation noted but declined to implement the OIG’s
 recommendations.

 As an example, the Serve Act granted the Corporation new authority to “assess against the national
 service program a charge for any amount of associated payment or potential payment” against a
 grantee that had “erroneous[ly] or incorrect[ly]” certified to the Corporation that an AmeriCorps
 member had completed his or her term of service. Based on prior audit experience and past internal
 discussions with the Corporation on this issue, the OIG recommended that the Corporation specify in
 the rule whether the grantee would be charged for the full amount of education award that it had
 erroneously certified or, charge only a pro-rated amount reflecting either the value of hours that the
 member was lacking for completion of the term of service, or a pro-rated value term of service. The
 OIG also suggested that the Corporation set out an evidentiary standard for determining errors on the
 part of grantees.

 Addressing this question in the preamble to the new regulations published in the August 20, 2010,
 edition of the Federal Register, the Corporation noted the OIG’s recommendations, but declined to
 set out in the regulation how it would determine what amount would be assessed, stating only that it
 would make the determination and charge on a “case by case” basis.



 April 1, 2010 – September 30, 2010                                                                17
                                Review Of Legislation And Regulations

In another example, the new rule states that the charge for the erroneous certification be against “the
national service program.” The OIG suggested that the Corporation clarify in the rule whether this
phrase meant that the Corporation would hold the grantee responsible for an erroneous certification
made by one of its subgrantees. In response, the Corporation declined to modify the rule to address
this question, but stated in the preamble that “it reserves that right to collect erroneous payments from
the grantee or any other entity with responsibility for the program.”

The Serve Act eliminated the rule that no AmeriCorps participant could receive a federally funded
living allowance, healthcare coverage, and child care allowance for more than two terms of service.
Under the Act, the only limitation is that a participant not receive more than the “aggregate” amount of
two education awards. Given these changes, the OIG sought to have the Corporation clarify in the
rules if AmeriCorps members could enroll in subsequent terms of service beyond a second term and
receive these benefits even if they had met the “aggregate” value of two education awards. The
Corporation did not directly respond to this question in the preamble. Nonetheless, judging from the
language of the new rule, and the discussions in the preamble that an “aggregate” value of two full-
time education awards could be spread out over four terms of service, it can be deduced that the
Corporation has decided to codify by regulation a policy that will permit an individual to serve up to
four full-time terms of service with federally subsidized benefits.

The OIG also suggested that the Corporation create regulations for several new sections to national
service laws in the Serve Act, such as the new requirement that grantees annually report the amount
and source of “other Federal funds” they receive to carry out the AmeriCorps program, or a
prohibition on grantees referring serving individuals to federally funded assistance programs. The
Corporation did not draft additional sections or respond to these concerns in the preamble to the text
of the regulation.

The OIG is an active participant in the Corporation’s Policy Council, furnishing comments on new and
updated policies. During this reporting period we worked with the Council and Corporation
management to create a new OIG Investigative Finding Policy. It helps to resolve administrative
investigative findings in a manner similar to audit resolution.




18                                                      April 1, 2010 – September 30, 2010
                                            Statistical And
                                          Summary Tables
                  The statistical and summary tables in this section are
                  submitted in compliance with the requirements
                  enumerated in the Inspector General Act.




April 1, 2010 – September 30, 2010                                 19
                                                                                       Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         25
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        13

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      22
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      23
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      24
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        25
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             8
                   General disagrees




 April 1, 2010 – September 30, 2010                                                          21
Tables


II.            Audit List

                                              April 1, 2010-September 30, 2010
      Report                                                               Dollars            Dollars          Funds Put To
                                     Report Name
      Number                                                              Questioned      Unsupported           Better Use
                                                                                        (Dollars in thousands)
      10-10    Agreed-Upon Procedures for Corporation for National and             $4                  $0                 $0
               Community Service Grant Awarded to Health Federation
               of Philadelphia

      10-11    Agreed-Upon Procedures for Corporation for National and             $5                  $0               $175
               Community Service Grant Awarded to the Research
               Foundation of the City University of New York


      10-12    Agreed-Upon Procedures Review of Corporation for                   $79                  $0                $16
               National and Community Service Grant Awarded to
               American National Red Cross

      10-13    Agreed-Upon Procedures Review of Corporation for                    $0                  $0                 $0
               National and Community Service Grant Awarded to Lower
               Mississippi Delta Service Corps
       10-14   Agreed-Upon Procedures of Corporation for National and             $15                  $5                 $6
               Community Service Grants Awarded to the Missouri
               Community Service Commission
       10-15   Agreed-Upon Procedures Review of Corporation for                   $71                 $56                $25
               National and Community Service Professional Corps
               Grant Awarded to Health Literacy Foundation

      10-16    Audit of the Volunteers in Service to America Member                $0                  $0                 $0
               Support Unit (VMSU)

      10-17    Agreed-Upon Procedures Review of Corporation for                  $226                  $0               $133
               National and Community Service Grants Awarded to
               Greater Pittsburgh Literacy Council

      10-18    Audit of An American Reinvestment and Recovery Act                  $5                  $0                 $0
               Grant Awarded to the Neighborhood Reinvestment
               Corporation
      10-19    Agreed-Upon Procedures of Corporation for National and             $46                 $12                $10
               Community Service Grants Awarded to Points of Light
               Foundation
       10-20   Social Innovation Fund (SIF) Pre-Award Reviews                      $0                  $0                 $0

                                        TOTAL                                    $451                $73                $365




  22                                                                  April 1, 2010 – September 30, 2010
                                                                                      Tables


III.          Reports With Questioned Costs


                                                                     Federal Costs

                    Report Category                    Number Questioned         Unsupported
                                                                      (Dollars in thousands)
   A. Reports for which no management decision           4           $237                           $193
      had been made by the commencement of
      the reporting period

   B. Reports issued during the reporting period         8           $452                            $73

   C. Total Reports (A + B)                              12          $689                           $266

   D. Reports for which a management decision            6           $312                           $249
      was made during the reporting period

          I. Value of disallowed costs                                $95                            $67

          II. Value of costs not disallowed                          $217                           $182

   E. Reports for which no management decision           6           $377                            $17
      had been made at the end of the reporting
      period (C minus D)

       F. Reports with questioned costs for which no     0             $0                             $0
          management decision or proposed
          management decision was made within six
          months of issuance




  April 1, 2010 – September 30, 2010                                                           23
Tables


IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                    Report Category                   Number        Dollar Value
                                                               (Dollars in thousands)
      A. Reports for which no management decision       4               $97
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period     7               $365

      C. Total Reports (A+B)                            11              $462
      D. Reports for which a management decision        6               $122
         was made during the reporting period

         i. Value of recommendations agreed to by                       $33
         management

         ii. Value of recommendations not agreed to                     $89
         by management

      E. Reports for which no management decision       5               $340
         had been made by the end of the reporting
         period
      F. Reports with recommendations that funds        0                $0
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance




 24                                                    April 1, 2010 – September 30, 2010
                                                                                  Tables


V.        Summary Of Audits With Overdue Management Decisions



                                                                Mgmt.      Status at End of
     Report                            Federal Dollars         Decision    Reporting Period
     Number        Title                Questioned               Due          (09/30/10)
                                      (Dollars in thousands)


                                                 None

                   Total                       $0




VI.       Reports Described In Prior Semiannual Reports
          Without Final Action


      Report                                                    Date         Final
      Number                Title                              Issued     Action Due

                                      None




 April 1, 2010 – September 30, 2010                                                    25
Tables


VII.   Peer Reviews
  The Investigations Section’s most recent Peer Review Report was issued August 18, 2009, by the
  Railroad Retirement Board OIG (RRB-OIG). It stated: “The system of internal safeguards and
  management procedures for the investigative function of the CNCS OIG in effect for the year ended
  May 2009 is in full compliance with the quality standards of the PCIE and the Attorney General
  Guidelines. The safeguards and procedures provide reasonable assurance that the CNCS OIG is
  conforming to professional standards in the conduct of its investigations.”

  RRB-OIG’s peer review also included several observations, all of which have since been addressed
  by our Investigations Section.

  Our Investigations Section’s next peer review is scheduled for the first quarter of 2012 and is to be
  conducted by Department of Commerce OIG.

  The Audit Section’s most recent Per Review Report was issued March 19, 2010, by the Nuclear
  Regulatory Commission OIG. It stated: “In our opinion, the system for quality control for the audit
  organization of CNCS OIG in effect for the year ended September 30, 2009, has been suitably
  designed and complied with to provide CNCS OIG with reasonable assurance of performing and
  reporting and conforming to professional standards in all material aspects.           Federal audit
  organizations can receive a rating of pass; pass with deficiencies, or fail. CNCS OIG has received a
  peer review rating of pass.”

  The Audit Section’s next peer review will be conducted in FY 2013. The reviewing OIG has not yet
  been selected.




  26                                                    April 1, 2010 – September 30, 2010
                                     Fiscal Year 2010
                             Performance Information
                  The section summarizes the Office of Inspector
                  General’s accomplishments and performance measures
                  in support of OIG strategic goals and provides a
                  comparison to previous reporting periods.




April 1, 2010 – September 30, 2010                             27
                                                            Performance Information


                        Quantitative Audit Performance Information

                                               2005       2006   2007      2008      2009       2010
Number of reports issued                        21         40    20         23         19        19

Number of reports issued linked to               3         12     7          7         7         5*
improving Corporation management (OIG
Goal One)

Number of recommendations linked to             40        139     24        22         51        13
improving Corporation management (OIG
Goal One)

Number of reports issued linked to              18         30     16        16         12        15*
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Number of recommendations linked to            142        179    164       194        126       199
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Total number of audit recommendations          169        316    182       216        176       212

Percent of recommendations accepted by         99%        100%   92%       93%        86%       96%
the Corporation

*OIG Audit Report 10-19 is included in both categories.

Strategic Goals

The Office of Inspector General’s strategic goals, developed and adopted during this reporting period
for FYs 2010-2015, are designed to promote economy, efficiency and effectiveness, and to prevent
and detect fraud, waste and abuse in Corporation programs and operations. The general purpose of
these goals is to improve the Corporation’s ability to meet its responsibilities and performance goals.
To achieve its strategic goals, the OIG must possess the strategic vision, leadership, and resources
required for effective and proactive oversight.

Goal One: Reduce program vulnerabilities, strengthen program integrity and Corporation efforts to
efficiently manage its programs and implement effective internal controls. We will do this by providing
timely and independent information to the agency’s Board of Directors, Chief Executive Officer, senior
management, and Congress regarding Corporation programs and operations.

Goal Two: Look ahead, anticipate change, stay flexible, and be prepared to meet new challenges.

Goal Three: Make public the results of our reviews, to the extent allowable by law and privacy
considerations, through a robust OIG website and social media tools; and look for ways to operate in
an environmentally conscious or “green” manner.




April 1, 2010 – September 30, 2010                                                             29
Performance Information


                       Investigations Performance Information
           Fiscal Year             FY 2006    FY 2007    FY 2008     FY 2009      FY 2010
  Investigative actions opened       58         62         41          40           39

  Investigative actions resolved     60         55          51         43           46
  and closed

  Average monthly caseload           38         44          38         32           32


  Investigative matters resolved     40         54          68         40           45
  without opening a separate
  investigative action

  Referrals for prosecution          12         16          8           3             9

  Investigative recoveries         $268,839   $838,569   $947,540   $1,317,227   $634,803

  Cost avoidance                   $74,586    $418,900   $81,731    $300,000     $1,218,178


  Administrative or management       20         35         29          16           20
  actions taken




 30                                              April 1, 2010 – September 30, 2010
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
